OIG Investigative Reports, Lieutenant Governor and Territorial Senator for American Samoa Indicted for Public Corruption Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
Monday, September 10, 2007
CRM
(202) 514-2008
TDD (202) 514-1888
LIEUTENANT GOVERNOR AND TERRITORIAL SENATOR FOR
AMERICAN SAMOA INDICTED FOR PUBLIC CORRUPTION CHARGES
WASHINGTON – Lieutenant Governor Aitofele T.F. Sunia and Territorial Senator Tini
Lam Yuen, of the U.S. Territory of American Samoa, have been arrested on fraud, bribery, and
obstruction charges, Assistant Attorney General Alice S. Fisher of the Criminal Division
announced today.
Sunia, 64, and Lam Yuen, 56, both residents of American Samoa, were charged today in
a six count indictment returned by a federal grand jury in the District of Columbia on Thursday,
Sept. 6, 2007, and unsealed today. The indictment charges Sunia and Lam Yuen with one count
of conspiracy; one count of fraud and one count of bribery concerning programs receiving
federal funds; and one count each of obstruction of an agency proceeding. Lam Yuen is charged
with an additional count of bribery concerning programs receiving federal funds.
According to the indictment, Sunia was the Treasurer of American Samoa at the time of
the crimes. The defendants allegedly engaged in a scheme to avoid the competitive bidding
process by conspiring to split a large project for furniture construction for the American Samoa
school system among companies owned and operated by the defendants and a third company
owned by the Chief Procurement Officer of American Samoa Fa'au Seumanutafa. The
defendants also conspired to structure invoices and procurement paperwork to create the false
appearance that the projects were dozens of small projects beneath the $10,000 threshold
requiring competitive public bidding. In fact the defendants and their co-conspirator handled
shared projects without competitive bidding worth collectively more than $775,000 over the
course of approximately three years.
The indictment further alleges that the defendants agreed to split the projects with
Seumanutafa as a bribe in exchange for his failure to enforce the procurement laws of American
Samoa, and that they provided cash gifts and free contracting work to the former Director of the
American Samoa Department of Education Kerisano Sili Sataua, in exchange for his agreement
to facilitate the fraudulent scheme.
On Oct. 17, 2005, Sataua was sentenced to 30 months of in prison and ordered to pay
$61,000 in restitution for his involvement in this fraud and bribery conspiracy.
On Oct. 3, 2005, Seumanutafa was sentenced to eight months in prison and ordered to
pay a $5,000 fine and $80,000 in restitution for his involvement in the conspiracy.
Sunia and Lam Yuen face a maximum of 10 years in prison and a $250,000 fine on the
fraud and bribery charges, and a maximum penalty of five years in prison and a $250,000 fine on
the conspiracy and obstruction charges.
An indictment is merely an accusation. All defendants are presumed innocent until
proven guilty at trial beyond a reasonable doubt. The matter was handled by the grand jury in
the District of Columbia because American Samoa is not designated by Congress to be part of
any specific federal judicial district.
This case is being prosecuted by Trial Attorneys Matthew L. Stennes and Daniel A.
Schwager of the Public Integrity Section, headed by Chief William M. Welch, II. The case is
being investigated by the Federal Bureau of Investigation, Honolulu Division; the Office of the
Inspector General for the U.S. Department of Education; and the Office of the Inspector General
for the U.S. Department of the Interior.
The broader investigation into grant-related corruption in American Samoa is being
conducted by an investigative team including special agents of the FBI located in Honolulu and
in Pago Pago, American Samoa; the Department of Interior Office of the Inspector General; the
Department of Education Office of the Inspector General; the Department of Homeland Security
Office of Inspector General; and the Department of Justice Office of Inspector General as well as
prosecutors in the Public Integrity Section of the Criminal Division and with the assistance and
cooperation of local officials. To date, the investigation has yielded guilty pleas from four
former American Samoa government officials including the Chief Procurement Officer of
American Samoa, the Director of the Department of Education of American Samoa, the Director
of the Department of Human and Social Services for American Samoa and the Director of the
School Lunch Program for American Samoa.
###
07-698
Top
Printable view
Share this page
Last Modified: 09/11/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov